Pension Benefit Guaranty Corporation
     Office of Inspector General
           Audit Report




 PBGC Has Opportunities to Reduce
 Multiemployer Administrative Costs




            March 30, 2007
                                   2007-4/PA-0031
                      Pension Benefit Guaranty Corporation
                                                     Office of Inspector General
                                      1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                           March 30, 2007

                          MEMORANDUM AUDIT REPORT


TO:            Terrence Deneen
               Chief Insurance Program Officer

FROM:          Luther Atkins
               Assistant Inspector General for Audits

SUBJECT:       PBGC has Opportunities to Reduce Multiemployer
               Administrative Costs (2007-4/PA-0031)


In November 2006, you requested that the Office of Inspector General (OIG) examine the
administrative costs paid by PBGC for operations of certain insolvent multiemployer plans.
You were concerned that the administrative costs for the smallest plans were high
considering the amount paid as pension benefits. Based on the request, OIG initiated an
audit in December 2006 to review the administrative costs of paying pension benefits for
the smallest insolvent multiemployer plans and to identify options for reducing the overall
costs of administering these plans.


Results in Brief
We concluded that the administrative costs for the smallest insolvent multiemployer plans
that receive financial assistance were disproportionate, when compared to the benefits paid
by these plans. We identified two options for PBGC to reduce administrative costs for
these plans:

   •   Close the plans by funding the purchase of annuities or lump sum payments for
       each participant; or
   •   Consolidate the administration similar to what is done with field benefit
       administrators of single employer plans.

Based on our review of a legal opinion issued by the Office of the General Counsel which
analyzed the financial assistance statutes, we concluded that PBGC can implement either of
these above stated options. After considering the merits of both options, we recommend
that PBGC close the plans by funding sufficient amounts for the plan administrator to
purchase annuities or to make lump sum payouts for each participant. We estimate that
PBGC would save about $1.9 million over the life of these plans by purchasing annuities.

The Chief Insurance Program Officer agreed with our finding and recommendation.
Background
Multiemployer plans are defined benefit plans that are maintained by two or more
employers and are collectively bargained. They are usually within the same or related
industries. Participants in a typical multiemployer plan receive benefits based on a flat
dollar amount for each year of service covered by the plan.

Under the Employee Retirement Income Security Act of 1974 (ERISA), as amended, single
employer and multiemployer plans are treated very differently when they can no longer pay
benefits to their participants. For single-employer plans, PBGC terminates and trustees the
plan, assumes administration of the plan and pays benefits directly to the participants. In
contrast, if a multiemployer plan meets the insolvency tests established by statute, then it
can apply to receive financial assistance from PBGC (see ERISA § 4245, 29 U.S.C. §
1426). The financial assistance consists of the total amount of benefit payments that are
due to participants plus administrative expenses, such as attorney’s and actuary’s fees and
the plan’s other costs. Once the multiemployer plan requests financial assistance from
PBGC and is approved, PBGC then transfers the funds to the plan, of which the plan
administrator continues to administer the plan and pay the participants’ benefits. The plan
requests and receives financial assistance payments on a cyclical basis.

The Multiemployer Program Division (MEPD) handles oversight and monitoring of the
1600 active multiemployer plans, as well as the 33 insolvent plans. The MEPD is
responsible for opening cases involving Notices of Termination and Notices of Insolvency.
Once the Notice of Insolvency is filed with MEPD, the case is referred to the Standard
Termination Compliance Division who assigns an audit supervisor to lead an initial audit
and review the cyclical financial assistance requests.

The need to reduce expenditures is especially acute today in light of the deficit in PBGC’s
net position in the multiemployer program: -$739 million reported in the FY 06 Financial
Statements (see PBGC’s FY 2006 Annual Management Report). Included in this deficit is
a $5.4 million liability for ten of this program’s smallest plans. If PBGC funds the
purchase of annuities or lump sum payouts, its liability will be paid in a single year.
However, all administrative costs are eliminated for future years.

To conduct our audit, we reviewed financial assistance requests from 10 of the smallest
plans. In addition, we interviewed program staff from the Multiemployer Program
Division and auditors from the Standard Termination and Compliance Division. This audit
was conducted in accordance with generally accepted government auditing standards
issued by the Comptroller General of the United States, Government Auditing Standards,
2003 Revision.

Disproportionate Administrative Costs
Administrative costs for small multiemployer plans that receive financial assistance were
disproportionate when compared to the benefits paid to plan participants. PBGC relies on
the plan administrators to control the administrative costs, some of which relate to required
work by accountants and actuaries. There may be several reasons for the disproportionate
administrative costs, including that the smallest plans cannot achieve the same economy of
scale as large plans. When comparing the costs of administering the smallest insolvent

                                                   -2-
                                                                                            2007-4/PA-0031
plans to the largest ones, the average administrative cost is much greater as a percentage of
benefits paid for the smallest plans compared to the largest plans. In 2005, administrative
costs were approximately 14 percent of benefits paid by the ten largest plans and 56
percent for the ten smallest plans.


          Administrative Costs as Percent of Benefits Paid
                  Insolvent Multiemployer Plans


  60%

  50%

  40%

  30%

  20%

  10%

   0%
                       Ten              Ten
                     Largest          Smallest


After comparing the benefits paid by the smallest plans to the plans’ administrative costs,
we concluded that the administrative costs were disproportionate when compared to the
benefits paid to participants. For most of the 10 plans we reviewed, the administrative
costs represented a significant amount of the financial assistance PBGC pays to the plan
(see Table I). For example:

   •    In 3 of the 10 plans, the cost of administering the plan far exceeds the amount paid
        to retirees. For one plan, PBGC paid $83,934 in administrative costs for $32,897 of
        the benefits, which is 2 ½ times the benefits paid to retirees.
   •    In another 4 plans, the administrative costs ranged from 27% to 63% of the retirees’
        benefit payments.
   •    In 2005, for these 10 smallest plans, PBGC paid a total of $425,658 in benefits and
        $240,162 in administrative expenses. This means that PBGC paid approximately
        56% of the benefits costs for plan administration expenses.

As the amount of financial assistance PBGC provided to multiemployer plans grew from
$14 million in FY 05 to $70 million in FY 06, the costs of administering these insolvent
plans could be a significant expenditure out of the multiemployer trust fund. PBGC needs
to identify an overall strategy to reduce the costs of administration, which does not rely on
plan administrators of the smallest plans to control costs, and achieves the same economy
of scale as large plans.



                                                   -3-
                                                                                           2007-4/PA-0031
Options for Reducing Administrative Costs
PBGC can achieve financial benefits by adopting a different model for paying participants
in the smallest insolvent multiemployer plans. Under the current financial assistance
program, PBGC will continue to fund the plan’s operations, until the final participant or
beneficiary in the plans dies, which can be many years. These costs are unavoidable,
unless specific steps are taken to reduce or eliminate the costs.

       Option 1 - Purchase Annuities. PBGC could close the plans by funding sufficient
       amounts for the plan administrator to purchase annuities or pay lump sums to each
       participant in these insolvent plans. This would eliminate: (1) all plan
       administrative costs in future years and (2) PBGC’s operations costs for staff
       assigned to monitor the insolvent plans and review the periodic applications for
       financial assistance. According to a recent report prepared by the Actuarial
       Services Division, the present value of future plan administrative costs is
       $1,086,969. Thus, PBGC could avoid spending this amount by funding the
       purchase of annuities or lump sum payouts for the participants in the 10 identified
       plans (see Table I).

       Purchasing annuities or making lump sum payouts would also eliminate the costs of
       monitoring insolvent plans and reviewing periodic applications for financial
       assistance. PBGC routinely conducts on-site evaluations of insolvent
       multiemployer plans. In addition, when the plan requests financial assistance,
       PBGC auditors review financial statements, expenditures and supporting
       documentation (such as invoices and check registers). The purpose of these
       reviews is to verify that the costs are reasonable and applicable to the plan. Based
       on estimates of the cost to conduct evaluations and the time required to process
       requests for financial assistance, we estimate that PBGC would avoid $832,000 in
       operating costs over the next ten years.

       Option 2 - Consolidate Operations. Another option for reducing administrative
       costs is for PBGC to consolidate the administration of insolvent multiemployer
       plans under one administrator. This option would be similar to what occurs when
       PBGC trustees a single-employer plan. PBGC trustees the plan and hires a
       contractor to administer the plan and pay benefits to participants. A similar
       approach for the smallest multiemployer plans would achieve economies of scale
       by consolidating the administration of the plans. This would reduce the cost of
       administration, but PBGC would continue to incur cost to monitor and oversee the
       plans. This option would eliminate more than $1 million of future administrative
       costs for the ten insolvent plans, but savings would be offset by the cost of
       consolidating the oversight, administration and benefit payments of the plans.
       Because we were unable to reasonably estimate these costs, we were unable to
       estimate the potential savings of consolidating operations.




                                                 -4-
                                                                                        2007-4/PA-0031
Legal Issues
At the outset of this audit it was unclear if PBGC had the statutory authority to do anything
other than to fund multiemployer plans on a continual basis until the participants and
beneficiaries were all deceased. In January 2001, the Office of the General Counsel (OGC)
issued a memorandum to the OIG analyzing the financial assistance statutes in ERISA.
OGC concluded that the ERISA financial assistance provisions were broadly drafted,
giving PBGC flexibility to administer payments to insolvent multiemployer plans.

We note that, over a course of years, PBGC has closed-out selected insolvent
multiemployer plans in several ways, one of which was through funding the purchase of
annuities. 1 PBGC had concluded it had the legal authority to close-out insolvent plans
rather than continuing to pay financial assistance, however, they had not established an
alternative program. The program officials believed the cost/benefit for purchasing
annuities would be favorable, but the data had not been analyzed. Hence, the request for an
independent and objective audit to analyze the data and report on the potential options.

Based on our review of OGC’s legal opinion, we concur that PBGC has the legal authority
to establish options, other than financial assistance, to pay participants’ benefits in
insolvent multiemployer plans.

Conclusion
After considering the available options and the related legal implications, we concluded that the best
option for reducing the overall cost of administering the smallest insolvent plans is to fund sufficient
amounts for the plan administrator to purchase annuities or pay lump sums to each participant. This
would eliminate over $1.9 million in future administrative costs and the costs of in-house monitoring of
insolvent plans.

Recommendation
We recommend that PBGC close the 10 smallest plans by funding sufficient amounts for
the plan administrator to purchase annuities or make lump sum payouts to participants.
(IPD-3)


Other Matters
During the audit, we identified two issues that did not directly relate to our objective but
warranted the attention of the Standard Termination Compliance Division (STCD).
Among the functions of STCD is conducting initial audits, when a multiemployer plan is
determined to be insolvent, and processing financial assistance requests from insolvent
multiemployer plans.




1
    Recently, PBGC facilitated the close out of the smallest plan in this audit by funding the purchase of annuities.

                                                               -5-
                                                                                                              2007-4/PA-0031
       1. No formal audit program

The initial audits are extremely valuable in accounting for assets, liabilities, income,
expenses and, most importantly, the participants. The initial audit is conducted by a team
of two or more auditors lead by an audit supervisor who has many years of PBGC audit
experience. A review of the work papers from two initial audits shows that the audits
thoroughly cover financial and participant data of the insolvent multiemployer plan and the
work was well documented. However, the audits are performed without a written audit
program to guide the auditor. Without a written audit program there is a risk that audits
will not be consistent among the auditors and that important steps could be overlooked.

STCD recently hired a contractor to write an audit program for the initial audits of
insolvent multiemployer plans. Although the contract does not specify a due date for the
audit program, STCD expects it to be completed by September 30, 2007.

       2. No requirement for continuing professional education

Although STCD auditors perform a variety of duties, much of their work requires auditing
and accounting skills. However, once hired, the auditors are provided very little continuing
education or training in their field of study. The training records of five STCD auditors
showed that they had not taken any accounting or auditing courses during the past two
years. There are similar trends for years going further back and for most auditors in STCD.
Continuing professional education is important for skill, proficiency and growth for those
designated as GS-0511 auditors; further, it is mandatory for those who are licensed
certified public accountants.

OIG Evaluation of Agency Comments
Overall, PBGC agreed with the report. However, since PBGC does not trustee
multiemployer plans they commented that when closing out a plan it would be more
efficient to have the current plan administrator, rather than PBGC, arrange the purchase of
annuities or payouts of lump sums to participants. A complete copy of PBGC’s response is
at Appendix A.




                                                  -6-
                                                                                        2007-4/PA-0031
                                                                           Table I



                              Analysis of Administrative Costs and
                      Benefit Payments for 10 Small Multiemployer Plans


                                                                               Administrative
                                                                                 Expenses
        Multiemployer                         Benefit     Administrative         as a % of
         Plan Name                Year       Payments        Costs            Benefit Payments

Hotel and Restaurant Employee
Union Local 18 Pension Plan       2005         $4,632         $4,898                 105.74%

Painters Local 1042
Pension Plan                      2005         $3,528         $2,229                 63.18%

Trustee for Tilesetters and
Marble Masons Local Union 2       2005        $10,357         $5,184                 50.05%

Graphic Art Pressroom
Retirement Fund                   2005        $51,807        $14,485                 27.96%


Textile Foreman's Pension Plan    2005        $49,654         $6,691                 13.48%
Luggage Workers Union of
Phil. and Vicinity Local 61
Retirement Plan                   2005        $36,552        $60,679                 166.01%

Brewery Workers Local 1149
Pension Plan                      2005        $60,519         $2,659                  4.39%
Retail Clerks Union District
Council No. 12 Variety and
Department Store Pension Plan     2005        $73,682         $9,986                 13.55%

Local 144 Funeral Directors
Pension Plan                      2005        $102,030       $49,417                 48.43%
Division 1181-1061 ATU Long
Island Employees Pension Fund
and Plan                          2005        $32,897        $83,934                 255.14%


          TOTALS                             $425,658        $240,162                56.42%




                                             -7-
                                                                                 2007-4/PA-0031
                                                                      Table II




           Administrative Costs as a Percentage of Benefit Payments
                           for a Three Year Period


 Multi Employer Plan Name                      2005         2004                  2003

Hotel and Restaurant Employee Union
Local 18 Pension Plan                         105.74%      35.12%                12.21%


Painters Local 1042 Pension Plan              63.18%      107.23%                119.79%

Trustee for Tilesetters and Marble Masons
Local Union 2                                 50.05%       31.99%                21.39%


Graphic Art Pressroom Retirement Fund         27.96%       17.26%                33.34%


Textile Foreman's Pension Plan                13.48%       17.61%                9.27%

Luggage Workers Union of Phil. and
Vicinity Local 61 Retirement Plan             166.01%     116.23%                104.32%


Brewery Workers Local 1149 Pension Plan        4.39%       14.24%                 3.40%

Retail Clerks Union District Council No. 12
Variety and Department Store Pension Plan     13.55%       13.54%                11.92%


Local 144 Funeral Directors Pension Plan      48.43%       41.80%                35.81%

Division 1181-1061 ATU Long Island
Employees Pension Fund and Plan               255.14%     201.61%                178.62%




                                              -8-
                                                                            2007-4/PA-0031
